No. _______

In the
Supreme Court of the United States

Demondray D. Mayo,
Petitioner,
v.
Perry Russell, et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*Emma L. Smith
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Emma_Smith@fd.org
Attorneys for Petitioner
*Counsel of Record

Petitioner Demondray Mayo respectfully asks for leave to file the attached
petition for writ of certiorari without prepayment of costs and to proceed in forma
pauperis. Counsel was appointed by the United States District Court for the District
of Nevada under 18 U.S.C. ยง 3599(a)(2), see Mayo v. State of Nevada, No. 3:09-cv00316-MMD-WGC, ECF No. 7 (Dist. Nev. April 22, 2010), and the United States
Court of Appeals for the Ninth Circuit allowed Mayo to proceed on appeal without
the prepayment of fees. See SUPREME COURT RULE 39.1 (authorizing leave to proceed
in forma pauperis when counsel was appointed in lower court due to indigency).
Accordingly, no affidavit is attached
Dated December 4, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Emma L. Smith
Emma L. Smith
Assistant Federal Public Defender

2

